No. 19-847

 

 

IN THE

Supreme Court of the United States

JONATHAN REISMAN,
Petitioner,
v.
ASSOCIATED FACULTIES OF THE
UNIVERSITY OF MAINE, et al.,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the First Circuit

MOTION FOR LEAVE TO FILE AMICUS BRIEF
AND BRIEF OF AMICUS CURIAE
FREEDOM FOUNDATION
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the brief contains
5,525 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

The motion contained within this publication has 366 words.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 5, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
